CERTIFICATE OF COMPLIANCE
No. 20A55
MARCI ANDINO, ET AL.,
Applicants,
v.
KYLON MIDDLETON, ET AL..,
Respondents.
As required by Supreme Court Rule 33.1(h), I certify that the foregoing Motion
for Leave to File Brief of Amici Curiae, Motion for Leave to File on 8 ½ by
11 Inch Format, and Brief of AARP and AARP Foundation as Amici Curiae
Opposing Emergency Application for Stay and Supporting Respondents
contains 4,741 words, excluding the parts of the Brief that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 3, 2020.
/s/ Daniel B. Kohrman___
Daniel B. Kohrman*
*Counsel of Record
William Alvarado Rivera
AARP FOUNDATION
601 E Street, NW
Washington, DC 20049
(202) 434-2064
dkohrman@aarp.org
Counsel for Amici Curiae

